           Office Of Inspector General




December 10, 2003

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT: Postal Service’s Injury Compensation Program – Past and Present
         (Product Number HM-OT-04-001)

This information report is one of two reports providing a history of the Postal Service’s
Injury Compensation Program – Past and Present (Project Number 03YS001HK000).
This report also serves as an informational primer to help facilitate critical evaluations of
future program initiatives, and it explains and provides an overview of the Department
of Labor, Office of Workers’ Compensation Programs. It encompasses the inception of
Postal Service operations in July 1971 through September 2003. While we recognize
senior Postal Service Injury Compensation Program management has extensive
knowledge of the information presented in this report, the report was intended for use
by others within Postal Service and Office of Inspector General management, as well
as staff who may not be as familiar with the Postal Service’s injury Compensation
Program.

We briefed Postal Service management on this report. Because the report does not
contain any recommendations, no written response from management is required.
However, if you wish to submit a written response to this report, please notify us. We
appreciate the cooperation and courtesies provided by your staff during this review. If
you have questions or need additional information, please contact Erica Blackman,
director, Health Care Audit, at (703) 248-2100 or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Ronald E. Henderson
    James J. Rowan, Jr.
    Susan M. Duchek


   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Postal Service’s Injury Compensation                                       HM-OT-04-001
 Program – Past and Present




                                   TABLE OF CONTENTS

Introduction                                                                    1

      Background                                                                1

      History of Federal Employees' Compensation Act and Development            1
      of Postal Service’s Injury Compensation Program

      Program Funding and Reporting                                             2
         Chargeback Cost Data                                                   2
         Chargeback Process                                                     3
         Administrative Fees                                                    4
         Injury Compensation Costs per Active Postal Service Employee           5
         Management Challenge Concerning Injury Compensation Costs              6
         OIG Reporting on Injury Compensation Costs                             7

      Roles, Entitlements, Responsibilities, and Discussion of the              7
      Claims Process
          Role and Structure of the Office of Workers’ Compensation             7
           Programs in the Claims Process
          Role and Structure of the Postal Service in the Claims Process        8
          Entitlements for the Benefit of Injured Federal Employees             8
           Continuation of Pay Leave Benefits                                   8
           Compensation for Wage Loss                                           9
           Medical Care Benefits                                               10
           Vocational Rehabilitation                                           10
           Schedule Awards                                                     10
           Compensation for Loss of Wage-Earning Capacity                      11
           Death Benefits                                                      11
          Responsibilities of Postal Service Injury Compensation               12
           Control Office in the Claims Process
          Responsibilities of Postal Service Supervisors in the                12
           Claims Process
          Responsibilities of Injured Postal Service Employees in              12
           the Claims Process
          Basic Injury Claim Forms                                             12
          Claims Disputes                                                      14
          Controversions                                                       14
          Challenges                                                           14
          Appeals to the Employees’ Compensation Appeals Board                 14
Postal Service’s Injury Compensation                                   HM-OT-04-001
 Program – Past and Present



  Current Postal Service’s Injury Compensation Program Initiatives         14
       Postal Service’s Arrangement with a Preferred Provider              15
         Organization
       Shared Service Center Injury Compensation Program                   15

   Program Oversight                                                       16
        Program Oversight Conducted by the Postal Inspection               16
         Service
        Program Oversight Provided by Joint Department of Labor and        16
         Postal Service OIG Audits

    Appendix A. Source Documentation                                       17

    Appendix B. Paid Administrative Fees Costs Chargeback                  18
                Year 1976 – Chargeback Year 2002

    Appendix C. Summary of Total Costs for Active Workers’                 19
                Compensation Claims Incurred by Postal Service
                Employees, FYs 1972 - 2002

    Appendix D. Summary of Paid Medical and Compensation Payments          20
                by Postal Service for Workers’ Compensation Claims,
                FYs 1997 - 2002

    Appendix E. The Postal Service’s Claims Process for Traumatic          21
                Injuries

    Appendix F. The Postal Service’s Claims Process for Occupational       22
                Injuries

    Appendix G. Compensation Schedule for Schedule Awards                  23
Postal Service’s Injury Compensation                                                              HM-OT-04-001
 Program – Past and Present


                                              INTRODUCTION
Background

This information report is one of two reports providing a history of the Postal Service’s
Injury Compensation Program. This report also serves as an informational primer to
help facilitate critical evaluations of future program initiatives, and it explains and
provides an overview of the Department of Labor, Office of Workers’ Compensation
Programs. It encompasses the inception of Postal Service operations in July 1971
through September 2003. This report includes the following:

        •    History of the Federal Employees’ Compensation Act and the Postal Service’s
             Injury Compensation Program

        •    Program Funding and Reporting

        •    Roles, Responsibilities, Entitlements, and Discussion of the Claims Process

        •    Current Postal Service’s Injury Compensation Program Initiatives

        •    Program Oversight

The second report1 provides a quick reference and summary of our prior audit work on
the Postal Service’s Injury Compensation Program. Both reports were written for
informational purposes to benefit the Postal Service and Office of Inspector General
(OIG) management.

History of Federal Employees’ Compensation Act and Development of Postal
Service’s Injury Compensation Program

In 1908, legislation was enacted by Congress to provide workers’ compensation for
certain federal employees in unusually hazardous jobs. The law was narrow in scope
and its benefits were limited. Subsequently, in 1916, the first Federal Employees
Compensation Act (the act) was enacted. This superseded the 1908 statute and
covered all federal employees. Since 1916, the purpose of the act as amended, title 5
United States Code 8101, has been to provide compensation and medical benefits to
civilian employees of the United States for disabilities resulting from personal injuries or
disease sustained while performing official duties. The act also provides for payment of
benefits to dependents if a work-related injury or disease causes an employee’s death.

In 1950, the administration of the act was assigned to the Department of Labor, now
administered by Employment Standards Administration, Office of Workers’
Compensation Programs. The sole function of the Office of Workers’ Compensation
1
 See our report entitled, Compendium of Prior Audits Addressing the Postal Service’s Injury Compensation Program
(Report Number HM-OT-04-002, dated December 10, 2003).



                                                        1
Postal Service’s Injury Compensation                                                                    HM-OT-04-001
 Program – Past and Present


Programs is to administer, implement, and enforce the act. The Office of Workers’
Compensation Programs is financed by the Employees’ Compensation Fund, which
consists of monies appropriated by Congress or contributed by certain agencies from
operating revenues.

Effective August 1970, the act covered Postal Service employees.2 Originally, the act
covered the basic categories of benefits for medical, wage loss compensation, and
death benefits. Subsequently, in 1974, legislative changes in the compensation laws
resulted in the addition of continuation of pay leave benefits and the employee’s ability
to choose a physician.

Before fiscal year (FY) 1973, workers’ compensation benefits were charged back to the
Postal Service by the Department of Labor, and were then reclaimed by the Postal
Service through congressional appropriations. Effective FY 1973, the Postal Service
assumed the entire financial cost for its injured employees. In 1978, the Postal
Service’s Injury Compensation Program was established as Postal Service
management realized the need to address the escalating costs of workers’
compensation benefits.

Program Funding and Reporting

Chargeback Cost Data

Injury compensation costs are billed by the Department of Labor, Office of Workers’
Compensation Programs, to federal agencies through the chargeback system. The
chargeback system is the mechanism by which the costs of compensation for
work-related injuries and deaths are assigned to federal agencies. Chargeback cost
data is provided to federal agencies on a regular reporting basis; however, chargeback
bills are submitted to federal agencies on an annual basis at the end of the fiscal
accounting period, (also referred to as chargeback billing period), that runs from July 1
of one year to June 30 of the next year.

The Office of Workers’ Compensation Programs furnishes each federal agency with a
billing statement of injury compensation payments due to injuries suffered by employees
of each respective agency. Each agency is responsible for reimbursing the Department
of Labor’s Employees’ Compensation Fund for those billed expenses. Unlike most
federal agencies, the Postal Service’s contributions to the Employees’ Compensation
Fund are derived from operating revenue, not from congressional appropriations. Injury
compensation costs and the respective payments made by the Office of Workers’
Compensation Programs include medical payments and wage compensation
(comprising disability payments, schedule awards, and death benefits).
In recent years, injury compensation costs for the federal government rose nationwide
from $1.7 billion in chargeback year 1992 to $2.2 billion in chargeback year 2002.
2
    Under the provisions of the Postal Reorganization Act, Title 39 United States Code 1005[c], August 1970.



                                                            2
Postal Service’s Injury Compensation                                                                      HM-OT-04-001
 Program – Past and Present


Likewise, the Postal Service’s injury compensation costs increased from approximately
$474.9 million to $785.2 million during the same period, an increase of 65 percent. As
shown in Chart 1, annual chargeback costs for other federal agencies have remained
flat; however, annual chargeback costs for the Postal Service’s Injury Compensation
Program have increased significantly.3

                                                            Chart 1


                                    Federal Em ployees' Com pensation Program Chargeback Costs**
                                                        by M ajor Federal Agency


                       $900,000                                                                    Postal

                       $800,000                                                                    Navy

                       $700,000                                                                    Arm y

                       $600,000                                                                    Veterans
           Thousands




                                                                                                   Air Force
                       $500,000
                                                                                                   Transportation
                       $400,000
                                                                                                   Justice
                       $300,000
                                                                                                   Treasury
                       $200,000
                                                                                                   Agriculture
                       $100,000
                                                                                                   Defense
                           $-
                                                                                                   Other
                                  1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002
                                                        Chargeback Year




**Chargeback costs do not include the administrative fees.

Source: Department of Labor, “FY 2002 Workers’ Compensation Costs Billed to Federal Agencies.”

Chargeback Process

Chargeback data is provided to federal agencies on an annual, quarterly, and weekly
basis. The Office of Workers’ Compensation Programs bills each agency annually for
paid compensation benefits.4 In addition, on a quarterly basis, the Office of Workers’
Compensation Programs sends each federal agency, including the Postal Service, a
chargeback report that lists all cases and their respective compensation costs. These
costs accumulate and are subsequently included on the annual chargeback report and
3
  Chargeback costs for chargeback years 1992 through 1997 included chargeback costs associated with the old Post
Office Department for which the Postal Service received annual congressional appropriations. However, starting with
chargeback year 1998, the Postal service assumed full responsibility for the old Post Office Department’s chargeback
costs and paid those costs from operating revenues without offsetting congressional appropriations.
4
  Title 5, United States code, Chapter 81, § 8147(b) requires that an agency not dependent upon annual
appropriations reimburse the Employees Compensation Fund for the costs expended on its behalf by October 15 of
each year.



                                                                3
Postal Service’s Injury Compensation                                                                  HM-OT-04-001
 Program – Past and Present


also on a separately issued annual chargeback bill. Furthermore, on a weekly basis,
the Office of Workers’ Compensation Programs sends electronic data to the Postal
Service that includes weekly compensation costs expended on behalf of the injured
Postal Service employees. This electronic data is merged into the Postal Service’s
Workers’ Compensation Information System, which is used by injury compensation
personnel to identify and correct errors before the annual chargeback report is issued.

In chargeback year 2002, the Postal Service’s injury compensation costs comprised
approximately 35 percent ($785.2 million out of $2.219 billion) of federal workers’
compensation expenditures, representing the largest amount of benefits paid by a
federal agency under the act. The Department of Navy was the next largest agency,
comprising nearly 11 percent ($248.3 million of the $2.219 billion). Chart 2 shows the
percent of the total chargeback costs by major agency for chargeback year 2002.

                                                     Chart 2


                             Percent of Total Chargeback Costs by Major Agency
                                           Chargeback Year 2002**

                                                                                 Postal

                                                                                 Navy
                                 14%
                                                                                 Army
                        3%                                                       Veterans
                                                          35%
                       3%
                                                                                 Air Force
                       4%
                                                                                 Transportation
                       4%
                                                                                 Justice
                        5%                                                       Treasury

                            6%                                                   Agriculture

                                 7%                 11%                          Defense
                                         8%
                                                                                 All Other Agencies




Administrative Fees

In addition to the annual contributions paid for the maintenance of the Employees’
Compensation Fund, the act (5 United States Code, Chapter 81, § 8147. c) stipulates
the Postal Service shall pay an additional amount for its fair share of the cost for
administration of Employees’ Compensation Fund, called administrative fees. These
administrative fees represent costs annually assessed by the Office of Workers’
Compensation Programs against claims paid for the benefit of injured Postal Service
employees. Federal agencies that receive appropriated funds do not pay administrative
fees. However, non-appropriated agencies, such as the Postal Service and the




                                                          4
Postal Service’s Injury Compensation                                                                            HM-OT-04-001
 Program – Past and Present


Tennessee Valley Authority, pay both compensation for work-related injuries and
administrative fees from their operating revenues.

From chargeback year 1997 through chargeback year 2002, the Postal Service was
billed approximately $175 million in administrative fees. 5 As shown in Chart 3,
administrative fees increased from $19 million in chargeback year 1997 to $45 million in
chargeback year 2002, an increase of 137 percent. During the same period, the
number of the Postal Service cases paid by the Office of Workers’ Compensation
Programs increased from 135,298 to 161,886 and increase of only 20 percent.

                                                              Chart 3

                                            Billed Administration Fee vs. Paid Cases per
                                                         Chargeback Year

                                      200,000                                                  $50
                                                                                         $45
                                      180,000                                                  $45
                                                                                 $37
                                      160,000                           $33                    $40
                                                $19     $21      $20
                                      140,000                                                  $35
                         Paid Cases




                                      120,000                                                  $30




                                                                                                     Millions
                                      100,000                                                  $25

                                       80,000                                                  $20

                                       60,000                                                  $15

                                       40,000                                                  $10

                                       20,000                                                  $5

                                           0                                                   $-
                                                97     98       99      00      01       02

                                                       Paid Cases            Admin Fee


Source: FY 2002 USPS Comprehensive Statement on Postal Operations and USPS Workers’ Compensation
        Information System, accounting period 13 report, for FYs 1996 through 2002.

Injury Compensation Costs per Active Postal Service Employee

In contrast to increasing chargeback costs, the number of active Postal Service
employees has not dramatically changed during the period from FYs 1992
through 2002. In FY 1992, the Postal Service had 816,192 employees, rising to
851,686 employees in FY 2002, an increase of 4.3 percent. However, the chargeback
cost per active Postal Service employee increased from $534.31 in chargeback year


5
 Administrative fees are billed once each year as a part of the Office of Workers’ Compensation Programs’
chargeback bill to the Postal Service.



                                                                 5
Postal Service’s Injury Compensation                                                               HM-OT-04-001
 Program – Past and Present


1992 to $902.47 in chargeback year 2002, an increase of 69 percent. Chart 4 displays
the change in injury compensation costs per active Postal Service employee.6

                                                    Chart 4


                                    Chargeback Cost per Active Postal Employee


     $1,000.00
       $900.00
       $800.00
       $700.00
       $600.00
       $500.00
       $400.00                                                                           $ per active
                                                                                         employee
       $300.00
       $200.00
       $100.00
          $-
                   92    93    94     95    96     97    98     99     00    01   02
                                            Chargeback Year



Source: FY 2002 United States Postal Service Comprehensive Statement and data compiled by the OIG.



Management Challenge Concerning Injury Compensation Costs

The commitment to reduce or control injury compensation costs by the Postal Service
was emphasized by Postmaster General John Potter in the Postal Service
Transformation Plan, April 2002. Specifically, in the section under the Management
Challenge of Performance Based Culture, the postmaster general stated his intention
“to reduce workers’ compensation costs by implementing programs and developing
opportunities for injured workers within and outside the Postal Service, and by working
with the Department of Labor on new initiatives and regulatory changes.”




6
 Postal Service’s injury compensation costs per active employee were extracted from the USPS Workers’
Compensation Information System, Chargeback Summary, accounting period 13 reports, for the fiscal years ending
1992 through 2002.



                                                         6
Postal Service’s Injury Compensation                                                               HM-OT-04-001
 Program – Past and Present


OIG Reporting on Injury Compensation Costs

Likewise, the OIG has shown its ongoing commitment to the Postal Service by striving
to identify ways to address the Postal Service’s management challenge to reduce or
control injury compensation costs. Specifically, the OIG assists Postal Service
management in the protection of its workforce by conducting audits to prevent and
detect fraud, waste, abuse, and mismanagement related to the Postal Service’s Injury
Compensation Program. In particular, from September 1998 through September 2003,
we issued 16 reports, one closeout letter, and one white paper to Postal Service
management. In our reporting, we identified three subject areas that continue to
represent management challenges:

                          •   Program Administration
                          •   Claims Processing
                          •   Continuation of Pay Leave Benefits

In the previously issued 16 reports, we provided Postal Service management with
50 recommendations. Although we have not confirmed, in all cases, the
recommendations made have been implemented, we are confident the implementation
of those reported recommendations would assist management in addressing the major
management challenges inherent to the Postal Service’s Injury compensation Program.7

Roles, Entitlements, Responsibilities, and Discussion of the Claims Process

Role and Structure of the Office of Workers’ Compensation Programs in the Claims
Process

The main responsibility of the Office of Workers’ Compensation Programs is to
determine whether the claimant is entitled to benefits under the act. The Office of
Workers’ Compensation Programs is responsible for adjudicating claims, authorizing
medical bills and wage compensation payments, and safeguarding the integrity of the
act.

The Office of Workers’ Compensation Programs’ management structure consists of the
director for Federal Employees Compensation, various Office of Workers’
Compensation Programs regional directors, and district directors. The district directors
have responsibility for oversight of the office functions. In each district office, two or
more claims managers are responsible for the operation of individual claim units.
Claims examiners have primary responsibility for handling claims. Individuals at each
level have specific responsibilities for making decisions on claims.




7
 See our report entitled, Compendium of Prior Audits Addressing the Postal Service’s Injury Compensation Program
(Report Number HM-OT-04-002, dated November 25, 2003).



                                                        7
Postal Service’s Injury Compensation                                         HM-OT-04-001
 Program – Past and Present


Role and Structure of the Postal Service in the Claims Process

The primary role of the Postal Service’s Injury Compensation Program is to assist
injured workers in the completion and submission of the compensation claims to the
Office of Workers’ Compensation Programs and to facilitate the return of injured
employees to the workplace. Policies and procedures for the Postal Service’s Injury
Compensation Program are established under the senior vice president, Human
Resources, and the manager, Health and Resource Management. Currently
498 individuals nationwide administer the Postal Service’s Injury Compensation
Program.

Within each of the Postal Service’s area offices, an area Human Resources manager
implements the Postal Service’s Injury Compensation Program and oversees area-wide
activities to comply with national policies and guidelines. Also, within the area office,
Human Resources analysts keep headquarters management advised of the status of
the agency and Office of Workers’ Compensation Programs initiatives, provide technical
assistance, and manage and oversee cost reduction initiatives.

Nationally, the Postal Service’s Injury Compensation Program is administered through a
network of district offices and selected satellite offices. The district Human Resources
manager implements headquarters and area program policies, objectives and action
plans within the district boundaries. The Human Resources manager’s responsibility is
to ensure injury compensation control offices are fully staffed and personnel are
properly trained.

Entitlements for the Benefit of Injured Federal Employees

The act provides entitlements for the benefit of injured federal employees. After the
claims examiner within the Division of Federal Employees’ Compensation adjudicates
and accepts the claim filed by an injured federal employee, the employee is entitled to
benefits. These benefits may include: continuation of leave pay benefits, compensation
for wage loss, medical care benefits, vocational rehabilitation benefits, schedule
awards, compensation for loss of wage-earning capacity, and death benefits.

Continuation of Pay Leave Benefits

The act provides that an injured employee’s regular pay may be continued for up to
45 calendar days because of wage loss caused by disability or medical treatment after a
traumatic injury. However, continuation of pay leave benefits are not payable for
occupational illness or disease claims. The intent of this provision is to avoid
interruption of the employee’s income while the claim is being adjudicated by the Office
of Workers’ Compensation Programs. Continuation of pay leave benefits are
administered and paid directly by the employing federal agency, and are not included in
chargeback costs billed by the Office of Workers’ Compensation Programs. Instead,
continuation of pay is a leave benefit, funded as a normal payroll cost, which is paid



                                            8
Postal Service’s Injury Compensation                                          HM-OT-04-001
 Program – Past and Present


directly from the Postal Service’s operating budget. Continuation of pay is considered
income subject to the usual deductions from pay. After the entitlement to continuation
of pay is exhausted, the employee may apply for wage loss compensation or use
annual or sick leave. In FY 1997, $24 million was paid for continuation of pay leave
benefits. In FY 2002, the cost rose to $27 million, an increase of 12.5 percent.

Compensation for Wage Loss

In cases of total disability caused by a work-related injury or illness, the employee may
be eligible for wage loss compensation at a percentage of the employee’s pre-disability
pay rate. Without dependents, an employee is entitled to compensation at the rate of
66 2/3 percent of his or her salary. With dependents, he or she is entitled to
compensation at the rate of 75 percent of the salary. Wage loss compensation benefits
for total disability may continue as long as the employee’s disability is medically
certified. There is no lifetime maximum dollar amount for this entitlement.

Wage loss compensation payments are included as a portion of the total injury
compensation costs billed annually by the Office of Workers’ Compensation Programs
to the Postal Service. However, on an interim basis, wage loss compensation
payments are classified and reported by the Office of Workers’ Compensation Programs
according to the estimated duration of the employee’s work related disability. The
classification and reporting of wage loss compensation payments is by either “daily roll”
or “periodic roll.” The Office of Workers’ Compensation Programs reports wage loss
compensation payments on the “daily roll” for payments to current employees whose
expected term of disability is not likely to exceed 60 days. Beyond the 60 days, the
Office of Workers’ Compensation Programs reports wage loss compensation payments
on the “periodic roll” for payments to both current and former employees who have been
medically determined to be totally disabled for an extended or indefinite period.

As of June 2002, injury compensation benefits were paid on 33,553 injury compensation
cases representing 32,376 injured Postal Service employees. The difference between
the number of cases and employees is attributed to injured Postal Service employees
who filed multiple but separate claims. Of the 33,553 injury compensation cases paid in
chargeback year 2002, 3,127 cases were for injuries sustained by 3,109 Postal Service
employees that year.

In FY 1997, $279.3 million was classified and reported as wage loss compensation,
representing 53 percent of the total of $522.1 million that was reported as injury
compensation benefits by the Postal Service. In FY 2002, the amount of wage loss
compensation rose to $361.8 million; however, due to the rise in the cost of the other




                                            9
Postal Service’s Injury Compensation                                                                HM-OT-04-001
 Program – Past and Present


injury compensation entitlements, wage compensation costs represented only
47 percent of the total $768.6 million that was reported by the Postal Service.8

Medical Care Benefits

Injured employees are entitled to medical services if the claim has been accepted as
compensable under the act. All medical treatment must be prescribed by a qualified
physician and the claims examiner must be convinced the medical services will likely
cure, give relief, or reduce the degree or the period of disability. There is no lifetime
maximum dollar amount for this entitlement. Also, medical benefits may continue as
long as the medical evidence supports the need for the medical treatment and remains
related to the work related medical condition.

In FY 1997, $176.3 million was reported as medical benefits, representing 34 percent of
the $522.1 million reported as injury compensation benefits by the Postal Service. In
FY 2002, the amount of medical benefits rose to $308.5 million, representing 40 percent
of the total $768.6 million reported by the Postal Service. (See Footnote 8 and
Appendix D.)

Vocational Rehabilitation

As with all other injury compensation benefits, the Office of Workers’ Compensation
Programs, division of Federal Employees’ Compensation claims examiners adjudicate
entitlement to vocational rehabilitation services and may authorize such services for
injured employees. Injured employees may receive rehabilitation services to assist in
training or job placement when they are unable to perform the duties of the pre-injury
job. The first vocational rehabilitation effort is for the employee to return to work with
the previous employer. When rehabilitation services are authorized and used,
employees can receive a monthly maintenance allowance not to exceed $200 in
addition to any approved wage loss compensation. The cost for vocational
rehabilitation is included in the total chargeback cost for medical care benefits.

Schedule Awards

Injured employees may be eligible for schedule awards, which represent fixed dollar
amounts paid to injured employees who suffer the permanent loss, or loss of use, of
certain members and functions of the body due to traumatic injuries or occupational
illness. Compensation is calculated based upon specific guidelines.9 Partial loss or
loss of use of these members and functions is compensated on a proportional basis.


8
  The Postal Service’s injury compensation costs were extracted from financial data reported in the USPS Workers’
Compensation Information System, Chargeback Summary, Accounting Period 13 reports, for the fiscal years ended
1997 through 2002. Therefore, the amounts in the accounting period reports are very different than the amounts
reported in any Office of Workers’ Compensation Programs chargeback reporting period.
9
  American Medical Association’s Guides to the Evaluation of Permanent Impairment.



                                                        10
Postal Service’s Injury Compensation                                           HM-OT-04-001
 Program – Past and Present


In FY 1997, $56.4 million was reported as schedule awards, representing 11 percent of
the total $522.1 million that was reported as injury compensation benefits by the Postal
Service. In FY 2002, the amount of schedule awards rose to $85.8 million, representing
11 percent of the total amount of $768.6 million reported by the Postal Service. (See
Footnote 8 and Appendices D and G.)

Compensation for Loss of Wage-Earning Capacity

An injured employee may receive compensation for the loss of wage-earning capacity if
the employee is reemployed at a lower paying job, or if the Office of Workers’
Compensation Programs, Division of Federal Employees’ Compensation claims
examiner determines the employee can perform duties of a lower paying position. In
either case, the Postal Service, through the chargeback process, would be obligated to
pay for the difference in salaries. The cost for loss of wage-earning capacity is included
in the total chargeback cost for the wage compensation.

Death Benefits

In the event of work-related death, survivors of deceased employees may be eligible for
payment of some funeral and burial expenses. In addition, survivors may be eligible for
compensation of the deceased employee’s lost wages. A surviving spouse with no
eligible children is entitled to compensation at the rate of 50 percent of the deceased
employee’s salary. Benefits are paid to the spouse until death or remarriage, if he or
she is under 55. If a spouse under age 55 remarries, claims examiners make a one-
time lump sum payment equal to 24 times the monthly compensation at the time of
remarriage.10

A surviving spouse who has eligible children is entitled to compensation at the rate of
45 percent of the deceased employees salary. An additional 15 percent is payable for
each child, up to a maximum of 75 percent of the salary. If the deceased employee
leaves no spouse, the first child is entitled to 40 percent, and each additional child is
entitled to 15 percent of the deceased employees salary, up to a maximum of
75 percent of the deceased employee’s salary.

In FY 1997, $10.3 million was billed for death benefits, representing 2 percent of the
$522.1 million reported as injury compensation benefits by the Postal Service. In
FY 2002, death benefit payments rose to $12.5 million, representing 2 percent of the
$768.6 million reported by the Postal Service. (See Footnote 8 and Appendix D.)




10
 Remarriage after age 55 does not affect death benefits.



                                                           11
Postal Service’s Injury Compensation                                             HM-OT-04-001
 Program – Past and Present


Responsibilities of Postal Service Injury Compensation Control Office in the Claims
Process

Personnel in the local injury compensation control office are responsible for
administering and monitoring all aspects of the Postal Service’s injury Compensation
Program. For example, after receiving injury claim forms from the employee, the control
office staff is required to submit the applicable forms to the Office of Workers’
Compensation Programs, within 10 working days.

Responsibilities of Postal Service Supervisors in the Claims Process

Postal Service supervisors are responsible for performing claims management
immediately following the injury. This encompasses investigating the circumstances of
the injury, and conducting the coordination and follow-up with the local control office
staff. To help the injury compensation control office meet the requirement to submit
injury claims within 10 working days, supervisors, upon receipt from the injured
employees, must submit injury claims to the local control office as soon as possible.
Specifically, throughout the Postal Service, supervisors are expected to sign injury claim
forms, supply needed supporting information, and submit the claim form within 24 hours
after receiving a signed claim form from an injured employee.

Responsibilities of Injured Postal Service Employees in the Claims Process

The injured employee, or person acting on the employee’s behalf, is responsible for
filing the initial claim form within 30 days of the date of traumatic injury, or after the
condition has been recognized as connected to the work environment. In the case of
the traumatic injury, the Postal Service encourages employees to file the initial injury
claim form within 48 hours of the date of injury. However, an employee, or his
representative, can file injury claim forms as late as 3 years following the date of injury
or death. If an injured employee files an injury claim for a traumatic injury later than
30 days following the date of injury, the injured employee will lose entitlement to
continuation of pay leave benefits.

Basic Injury Claim Forms

One or more types of injury claim forms may be required, depending on the type of
injury sustained by the employee. The forms are used to notify the Office of Workers’
Compensation Programs of the initial injury claim and serve as the official report
regarding the claim. The initial claim forms are:

    •   Form CA-1, Federal Employee’s Notice of Traumatic Injury and Claim for
        Continuation of Pay/Compensation.

    •   Form CA-2, Notice of Occupational Disease and Claim for Compensation.




                                             12
Postal Service’s Injury Compensation                                           HM-OT-04-001
 Program – Past and Present


     •   Form CA-2a, Federal Employee’s Notice of Recurrence of Disability and Claim of
         Pay/Compensation.

     •   Form CA-5, Claim for Compensation by Widow, Widower, and/or Children.

     •   Form CA-6, Official Supervisor’s Report of Employee’s Death.11

Form CA-1 is completed and submitted to Postal Service management in the event of a
traumatic injury. A traumatic injury is defined as: “a wound or other condition of the
body caused by external force, including stress and strain, which is definable as to the
time and place of the occurrence and the member of the body affected.” The injury
must be caused by a specific event.

The Office of Workers’ Compensation Programs’ policy allows some Form CA-1 claims
under the “Quick Close” provision, which means the claims examiner will not adjudicate
the claim until wages and medical claims exceed $1,500. All other Form CA-1 claims
receive an approval letter in the mail from the Office of Workers’ Compensation
Programs. According to the act, the statute of limitations for filing to request injury
benefits is 3 years from the date of injury. See Appendix E for a flow chart of the
traumatic injury claims process.

Form CA-2 is filed when an employee sustains an occupational illness or disease. An
occupational illness is defined as a condition produced in the work environment over a
period of time, longer than 1 workday or shift. It may involve infection, repeated stress
or strain, or exposure to toxins, fumes, or other continuing conditions of the work
environment. These conditions are usually slow in developing and do not generally
occur at a specific time and place. Examples of occupational illness or disease include
carpal tunnel syndrome, rotator cuff strains and heart conditions.

Claims for occupational illness generally take longer to adjudicate (approximately 3 to
6 months); therefore, while claim examiners are adjudicating the injury, employees are
allowed to use sick leave, annual leave, or leave without pay for any related absences.
Postal Service regulations permit employees, on a case-by-case basis, who use sick or
annual leave, to buy-back leave with compensation payments. See Appendix F for a
flow-chart of the occupational illness claims process.

Form CA-2a provides notice to Postal Service management and the claims examiner
that an employee, after returning to work, is again disabled because of a prior injury or
occupational illness.

Form CA-5 provides notice to Postal Service management and the claims examiner of
the survivor’s widow, widower, and/or dependent’s claim for compensation because of
the employee’s death due to a job-related injury.


11
 Claim forms are available at www.dol.gov/esa/regs/compliance/owcp.



                                                      13
Postal Service’s Injury Compensation                                          HM-OT-04-001
 Program – Past and Present


Form CA-6 provides notice to Postal Service management and the claims examiner of
an employment-related death of an employee.

Claims Disputes

Claims may be disputed through controversions, challenges, or appeals to the
Employees’ Compensation Appeals Board.

Controversions

When Postal Service management believes an employee was not traumatically injured,
the Postal Service can controvert the employee’s injury claim by objecting to the
employee’s request for continuation of pay leave benefits for one of the reasons
provided by regulation. Postal Service supervisors may controvert a claim by
completing the indicated portion of Form CA-1 and submitting it with supporting detailed
information to the Office of Workers’ Compensation Programs.

Challenges

In contrast to a controversion, which objects to an employee’s right to continuation of
pay leave benefits, a challenge is the formal administrative procedure through which
Postal Service management disputes any element of an employee’s claim, except for
continuation of payment of benefits, for injury compensation benefits that appear
questionable. The facts must be thoroughly documented by the Postal Service with a
written explanation of the dispute.

Appeals to the Employee’s Compensation Appeals Board

The Employees’ Compensation Appeals Board (the board) is a quasi-judicial appellate
body with exclusive jurisdiction to consider and decide appeals of final claim decisions
made by claims examiners within the Office of Workers’ Compensation Programs. It
was created in 1946 as part of the Federal Security Agency, and in 1950 was
transferred to the Office of Workers’ Compensation Programs. The board reviews
issues on disputed questions of fact, law, and the abuse of, or failure to exercise
discretion. The board’s decisions can be for further development of the evidence or
other appropriate actions. The board’s decisions are final and are not subject to judicial
review by another agency.

Current Postal Service’s Injury Compensation Program Initiatives

Rising injury compensation costs have had a major impact on the Postal Service’s
financial condition, which is directly affected each time an injured employee is
compensated. Postal Service management has planned numerous initiatives to help
control injury compensation costs. Two such initiatives are:




                                            14
Postal Service’s Injury Compensation                                                                HM-OT-04-001
 Program – Past and Present


     •   Postal Service’s Arrangement with a Preferred Provider Organization.
     •   Shared Service Center Injury Compensation Program.

Postal Service’s Arrangement with a Preferred Provider Organization

In April 2000, representatives from a preferred provider organization approached the
Postal Service with an unsolicited proposal to reduce medical costs associated with
injured Postal Service employees. As a result, Postal Service management initiated an
arrangement with a Preferred Provider Organization12 and authorized a pilot program to
determine the feasibility of slowing the rapidly increasing medical costs. The contractor
projected that the medical cost savings would be achieved by using its network of fee
schedule discounts, which were negotiated by the preferred provider organization with
its network of medical providers.

The preferred provider organization estimated the Postal Service’s portion of medical
cost savings to be as high as $30 million annually when the test program was fully
implemented. The Postal Service began using the preferred provider organization
network for medical case management as a 2-year pilot program beginning in
March 2001. The contract, which expired in February 2003, was renegotiated and
signed in October 2003.

Shared Service Center Injury Compensation Program

Postal Service management initiated the Shared Service Center Injury Compensation
Program (the shared service center)13 to better control costs and to improve operational
efficiency. The shared service center concept involves sharing technology, people, and
other resources within and across administrative functions in order to reduce costs and
improve the quality of administrative services. The Postal Service initiated the shared
service center concept as a pilot to address injury compensation issues in the Postal
Service’s Eastern Area.

A pilot program was designed to reengineer and standardize the injury compensation
process, with the goal of reducing administrative costs. This concept involved the
consolidation of injury compensation and accident reporting operations at one
centralized location. Objectives of the program were to reduce costs, promote
efficiency, standardize processes to eliminate redundant activities, and improve
customer service. The pilot program, which ended in December 2002, became fully
operational in the Postal Service’s Eastern Area.




12
  See or audit report entitled, Postal Service’s Arrangement with a Preferred Provider Organization, (Report Number
HK-AR-03-001, dated March 31, 2003).
13
  See our audit report entitled, Shared Service Center Injury Compensation Program (Report Number HK-AR-03-002,
dated June 19, 2003).



                                                        15
Postal Service’s Injury Compensation                                           HM-OT-04-001
 Program – Past and Present


Program Oversight

Program Oversight Conducted by the Postal Inspection Service

Originally, the Postal Inspection Service had primary responsibility for workers’
compensation investigations. Although the OIG had the jurisdiction to perform this
work, at our inception in 1996,14 we did not have sufficient staffing and resources to do
so. Having grown in size since our inception, on December 2002, the OIG assumed
responsibility for Postal Service employee-related workers’ compensation fraud
investigations in the Capital Metro Area. As part of the transition to assume this work, it
was decided that workers’ compensation cases being investigated by the Postal
Inspection Service as of December 7, 2002, would remain with the Postal Inspection
Service, and the OIG would investigate all new allegations of claimant workers’
compensation fraud in the Capital Metro Area. Further, the OIG continues to support
active Postal Inspection Service investigations by providing subpoenas to the Postal
Inspection Service. In addition, the OIG works with the Postal Inspection Service to
avoid duplication of effort.

Program Oversight Provided by Joint Department of Labor and Postal Service OIG
Audits

The Department of Labor OIG and the Postal Service OIG have begun efforts to
improve oversight of both the nationwide Workers’ Compensation and the Postal
Service’s Injury Compensation Programs. Both agencies have agreed to work jointly to
address the escalating injury compensation costs and to develop program
improvements.




14
 5 United States Code Service Appendix § 8(G)(f)(2) (1996).



                                                       16
Postal Service’s Injury Compensation                                        HM-OT-04-001
 Program – Past and Present


                                       APPENDIX A

                               SOURCE DOCUMENTATION

For this report, we reviewed documents for background information pertaining to the
Office of Workers’ Compensation Programs, and we obtained additional documentation
from Postal Service management on the operation and history of the Postal Service’s
Injury Compensation Program. Those documents included:

    •   The Federal Employees Compensation Act, 5 United States Code, Chapter 81.
    •   The Postal Reorganization Act, Title 39 United States Code 1005[c], April 1970.
    •   Injury Compensation, Office of Workers’ Compensation Programs, Publication
        CA-810, January 1999, pages 4, 9-18, 24-32, 37, 43-47, 55, 63 and 64.
    •   Employee and Labor Relations Manual-15, Chapter 540, December 1999,
        pages 479-504.
    •   Administrative Support Manual, Issue 13, July 1999.
    •   Handbook EL-505, entitled, Injury Compensation, dated December 1995.
    •   The Postal Service Transformation Plan, April 2002.
    •   Postal Service OIG Testimony to the Subcommittee on International Security,
        Proliferation and Federal Services of the Senate Committee on Government
        Affairs, September 27, 2002.
    •   Postal Service Annual Reports and Comprehensive Statements on Postal
        Operations (FYs 1976 through 2001).
    •   Injury Compensation Program, The Supervisor’s Role and Responsibilities, The
        Student’s Workbook, February 1990.
    •   Various issues from The Postal Record.
    •   Postal Employees’ Injury Compensation Presentation to the Board of Governors,
        dated June 7,1977.
    •   www.dol.gov/esa.
    •   Postal Service’s Arrangement with a Preferred Provider Organization, (Report
        Number HK-AR-03-001), dated March 31, 2003.
    •   Shared Service Center Injury Compensation Program, (Report Number HK-AR-
        03-002), dated June 19, 2003.
    •   Retirement Eligible Postal Service Employees on the Workers’ Compensation
        Periodic Rolls, (Report Number HK-MA-03-001), dated March 21, 2003.




                                           17
Postal Service’s Injury Compensation                                                                                      HM-OT-04-001
 Program – Past and Present


                                                        APPENDIX B

                   PAID ADMINISTRATIVE FEES COSTS CHARGEBACK
                         YEAR 1976 – CHARGEBACK YEAR 2002



              50
                                                                                                                                         45
              45

              40
                                                                                                                                    37

              35                                                                                                               33


              30
   Millions




              25
                                                                                                                     21
                                                                                                                          20
                                                                                                             19 19
              20
                                                                                              17        17
                                                                                                   16
                                                                                15
                                                                                         14
              15
                                                        11                 11
                                                   10                 10
                               9       9                     9   9                   9
              10                   8       8
                                               7
                           6
                       5
                   4
              5

              0
                   76 77 78 79 80 81 82 83 84 85 86 87 88 89 90 91 92 93 94 95 96 97 98 99 00 01 02

                                                             Chargeback Year


Source: USPS Comprehensive Statement on Postal Operations with inclusive financial
        data from FYs 1978 through 2002.




                                                                 18
Postal Service’s Injury Compensation                                                                                                                    HM-OT-04-001
 Program – Past and Present




                                                                           APPENDIX C

                  SUMMARY OF TOTAL COSTS FOR ACTIVE WORKERS’
                COMPENSATION CLAIMS INCURRED BY POSTAL SERVICE
                           EMPLOYEES, FYs 1972 – 2002

              900



              800



              700



              600
   Millions




              500



              400



              300



              200



              100



                0
                    72   73   74   75   76   77   78   79   80   81   82   83   84   85    86   87   88   89   90   91   92   93   94   95   96   97   98   99   00   01   02

                                                                                          Fiscal Year



              Source: USPS Comprehensive Statements and Annual Reports from FYs 1972 through 2002
                      and USPS Workers’ Compensation Information System-Chargeback Summary accounting
                      period 13. Report for FYs 1996 through 2002.




                                                                                      19
Postal Service’s Injury Compensation                                                         HM-OT-04-001
 Program – Past and Present




                                                 APPENDIX D

     SUMMARY OF PAID MEDICAL AND COMPENSATION
PAYMENTS BY POSTAL SERVICE FOR WORKERS’ COMPENSATION
                CLAIMS, FYs 1997 – 2002


              900


              800


              700


              600
   Millions




              500


              400


              300


              200


              100


                0
                             97             98           99        00       01         02

                                                   Fiscal Year

                    TOTALS        MEDICAL   DISABILITY    SCHEDULE AWARDS   DEATH BENEFITS




Source: USPS Comprehensive Statements and Annual Reports from FYs 1972 through 2002 and
        USPS Workers’ Compensation Information System, Chargeback Summary, accounting
        period 13 Reports for FYs 1996 through 2002.




                                                              20
Postal Service’s Injury Compensation                                                                                                              HM-OT-04-001
 Program – Past and Present


                     APPENDIX E. THE POSTAL SERVICE’S CLAIMS
                        PROCESS FOR TRAUMATIC INJURIES
                                                        C A -1, F ederal E m ployee's N otice of T raum atic Injury
                                                          and C laim for C ontinuation of P ay/C om pensation


                                                                    S upervisor notifies IC C O as soon
                                                                               as possible


                                                       IC C O or designated control point inform s em ployee of
                                                        right to see a physician or a U S P S contract physician




                                                S upervisor advises em ployee of rights and responsibilities

                                                C ontinuation of pay

                                                C om pensation for em ployee wage loss if disability continues
                                                beyond 45 days

                                                M edical care, schedule awards, and vocational rehabilitation

                                                E m ployee receives letter, "E m ployee R ights, R esponsibilities, and
                                                C hoice of P hysician"

                                                E m ployee receives injury kit which includes all relevant form s



                                                                  S upervisor assists em ployee in filing
                                                                                  C A -1



                                                       A fter receiving C A -1 from em ployee, supervisor dates
                                                        form and reviews it for com pleteness and accuracy




                                                                    S upervisor com pletes F orm 1769



                                              S upervisor subm its com pleted C A -1, copy of F orm 1769, and all other
                                                 docum entation to IC C O within 24 hours of receipt from em ployee




                                                                                         E m ployee
                                                           Y es                        chooses U S P S                              No
                                                                                         P hysician

       IC C O or C ontrol P oint issues F orm 3956 (A uthorization for M edical
       A ttention) and F orm 2491 to em ployee

       E m ployee is inform ed that he or she m ay choose to see a private
       physician after initial evaluation by U S P S contract physician                                               IC C O or C ontrol P oint issues
                                                                                                                      C A -16, C A -17, C A -20, H C F A
                                                                                                                      1500 (H ealth Insurance C laim
              C A -16 is provided to em ployee in the event that he or she                                            Form ) to em ployee
              sees a private physician later (within 4 hours of reported
              injury)



                                                                       IC C O or supervisor ensures that all form s are
                                                                         provided and authorizes m edical treatm ent



                                                              M edical visit determ ines all subsequent decisions, such as:

                                                                              W hen em ployee returns to work

                                                                            W hether em ployee returns to work

                                                                  A ny m edical restrictions the em ployee m ust work under


Source: Office of Workers Compensation Programs, Publication CA-810, January 1999, pages 9-31 and
        Handbook EL-505, Injury Compensation, pages 24-46.



                                                                              21
Postal Service’s Injury Compensation                                                                  HM-OT-04-001
 Program – Past and Present


                APPENDIX F. THE POSTAL SERVICE’S CLAIMS
                  PROCESS FOR OCCUPATIONAL INJURIES

                                                              C A -2
                                            N otice of O ccupational D isease and
                                                   C laim for C om pensation




                                             S upervisor notifies IC C O as soon
                                                        as possible




                                  IC C O or designated control point inform s em ployee of
                                     right to see physician or U S P S contract physician




                            S upervisor advises em ployee of rights and responsibilities

                            C om pensation for em ployee wage loss if disability continues
                            beyond 45 days

                            M edical care, schedule awards, and vocational rehabilitation

                            E m ployee receives letter, "E m ployee R ights, R esponsibilities, and
                            C hoice of P hysician"

                            E m ployee receives injury kit which includes all relevant form s




                                           S upervisor assists em ployee in filing
                                                           C A -2




                                  A fter receiving C A -2 from em ployee, supervisor dates
                                   form and reviews it for com pleteness and accuracy




                                             S upervisor com pletes Form 1769




                          S upervisor subm its com pleted C A -2, copy of Form 1769, and all other
                             docum entation to IC C O within 24 hours of receipt from em ployee




                               M edical visit determ ines all subsequent decisions, such as:

                                            W hen an em ployee returns to work

                                           W hether an em ployee returns to work

                                 A ny m edical restrictions the em ployee m ust work under


Source: Office of Workers Compensation Programs, Publication CA-810, January 1999, pages 14-16
        and Handbook, EL-505, Injury Compensation, pages 24-46.



                                                              22
Postal Service’s Injury Compensation                                                                          HM-OT-04-001
 Program – Past and Present


                         APPENDIX G. COMPENSATION SCHEDULE
                               FOR SCHEDULE AWARDS




       Source: The Office of Workers’ Compensation Programs – United States Department of Labor Publication CA-810 Revised
                        2
          January 1999.




2
    This chart represents the discussion of schedule awards on page 11 of this report.



                                                               23
